No. 20-1088
IN THE

Supreme Court of the United States
DAVID and AMY CARSON, as parents and
next friends of O.C., and TROY and ANGELA NELSON,
as parents and next friends of A.N. and R.N.,
Petitioners,
v.
A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of
Education,
Respondent.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 10th day of September, 2021, I caused three copies of the Brief of Innovative
Schools as Amici Curiae in Support of Petitioners to be served by third-party
commercial carrier on the counsel identified below, and caused an electronic version to
be transmitted to the counsel identified below, pursuant to Rule 29.5 of the Rules of this
Court. All parties required to be served have been served.
Michael Eugene Bindas
INSTITUTE FOR JUSTICE
600 University Street
Suite 1730
Seattle, WA 98101
(206) 957-1300
mbindas@ij.org

Sarah Ann Forster
OFFICE OF THE ATTORNEY GENERAL
6 State House Station
Augusta, ME 04333
(207) 626-8866
sarah.forster@maine.gov
Counsel for Respondent

Counsel for Petitioners

/s/ Allyson N. Ho
Allyson N. Ho

